                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM


I    Case Number: 1-03110050


                                                                                      I
                                                                                                 Page 1 of 2
                                                                                                                   I
                  As part of a review of awards for conferences, workshops, and symposia, we requested
           information about a grant' ,from the grantee.2 In response to our letter requesting grant records

Il         and information about any program income, the grantee forwarded materials to us on
           17 September 2003. There were two issues, unallowable costs and a possible conflict of interests

Il         (COI).

                   Unallowable costs: The award supported a three-day workshop. The bill for the
          workshop services included charges for catering for a "Social & Buffet," and the overall hotel
          bill for the conference included the costs for an open bar followed by a catered dinner. We wrote
          to the grantee concerning the unallowability of the costs of alcohol and social events, and in
          response the grantee said that it would return $680.53 to NSF, which it subsequently did.

                   COI: The NSF Program officer3 (the PO) was a vice chairman of an entity involved in
           international coordination of research efforts in this field, but the PO did not "obtain written
           permission from an ethics counselor in OGC before participating as a policymaking officer for
           any research or educational institution, any scientific society, or any professional association," as
           required by § 50(b)(2) of NSF's COI Manual. The workshop schedule listed the PI as providing
           the perspective of NSF and this entity.

                   The PO said he has attended the DAEO's annual COI briefings. Although he did not seek
           specific permission from the DAEO, he noted that he began serving with the entity before
           coming to NSF 6 years ago, and described that service in his IDP each year. The DAEO told us
           that he reviews all IDPs, and we believe this is sufficient to comply with the permission
           requirement in § 50(b)(2) of NSF7sCOI Manual.

                   With regard to the workshop, the PO said he had not written or paid attention to the
           schedule, and he was there to give the NSF view, not the entity's. He also said that he has never
           received any direct salary from the entity. The entity did pay his expenses once or twice to attend
           meetings, and beforehand he sought and obtained approval from the DAEO. The PO stated that
           he is not involved in the entity's activities relative to the NSF-funded project that grew out of the
           workshop, and he did not think that any NSF money goes to the entity.




I'
 NSF OIG Fotm 2 (1 1/02)
